HHS/OIG-Audit--"Third Party Liability Identification and Collection from Insurance Companies at the Florida Department of Health and Rehabilitative Services, (A-04-92-01020)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Third Party Liability Identification and Collection from Insurance Companies at the Florida Department of Health
and Rehabilitative Services," (A-04-92-01020)
September 2, 1993
Complete
Text of Report is available in PDF format (1.87 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit report provides the results of our audit of the Third Party Liability Identification and Collection from Insurance
Companies at the Florida Department of Health and Rehabilitative Services (DHRS) for the period of July 1, 1989 through
June 30, 1991. The objective of our review was to determine whether the Florida DHRS had established a system of accountability
for third party liability (TPL) under the Medicaid program. During this audit we examined: (1) insurance payments (2) the
validity of outstanding insurance company billings, and (3) collections from the insurance companies. Our review disclosed
that DHRS had not sought reimbursement from Blue Cross and Blue Shield of Florida, Inc. (BCBSF) since January 1989 for
305,230 claims with potential TPL. These claims were not billed because DHRS suspended its submission of paper claims to
BCBSF until an electronic billing medium could be designed and implemented by the fiscal agent. The 305,230 claims totaled
$8,539,398 (Federal share of $4,661,089).